               Causes of the Postal Service
                 FERS Surplus – Update




                            December 4, 2012




Sponsored by U.S. Postal Service Office of Inspector General
             Report Number: RARC-WP-13-002
U.S. Postal Service Office of Inspector General                                                 December 4, 2012
Causes of the Postal Service FERS Surplus – 2012 Update                                         RARC-WP-13-002



        Causes of the Postal Service FERS Surplus – Update


                                      Introductory Summary

In October, the U.S. Postal Service Office of Inspector General (OIG) released a white
paper entitled Causes of the Postal Service FERS Surplus that explored the reasons for
the persistent surplus in the postal share of the Federal Employees’ Retirement System
(FERS) program.1 For the paper, we asked Hay Group, the actuarial consulting firm, to
investigate the causes of the surplus. Hay Group found that the FERS surplus resulted
from differences between Postal Service characteristics and the characteristics of the
rest of the federal government and recommended using Postal Service-specific
assumptions to measure the FERS liability. Hay Group estimated that when Postal
Service-specific assumptions were used, the $11.4 billion FERS surplus projected for
fiscal year (FY) 2011 increased to $24.0 billion.

Since the release of the white paper, the Office of Personnel Management (OPM) has
issued its annual estimate of the FERS surplus. This estimate was based on new
economic and demographic assumptions adopted in July by the Board of Actuaries in
charge of setting assumptions for FERS. In the new estimate, the surplus that was
originally projected to be $11.4 billion decreased to $2.6 billion as of FY 2011
($3.0 billion as of FY 2012). There were several reasons for the decline:

       The assumed rate of future interest earnings was reduced from 5.75 percent to
        5.25 percent, increasing the estimated liability;

       OPM’s new demographic assumptions included improvements to expected
        lifespans increasing the liability; and

       Actual 2011 experience for both the assets and liability were less favorable than
        initially assumed, resulting in an experience loss.

We asked Hay Group to update their previous estimate of the surplus to reflect the new
assumptions OPM used. Hay Group also took the opportunity to update its assumptions
for pay increases based on the Postal Service’s latest information. The results appear in
the following report. Hay Group found the projected surplus to be $12.48 billion as of
FY 2012 when Postal Service-specific assumptions are used. This is an increase of
more than $9 billion from OPM $3.0 billion estimate.

As we stated in the previous white paper, we support using Postal Service-specific
assumptions whatever the effect on the FERS surplus as it provides a more accurate
and stable estimate of Postal Service liability that is more likely to match the future

1
 U.S. Postal Service Office of Inspector General, Causes of the Postal Service’s FERS Surplus, Report No.
RARC-WP-13-001, October 13, 2012, http://www.uspsoig.gov/foia_files/RARC-WP-13-001.pdf.


                                                        1
U.S. Postal Service Office of Inspector General                           December 4, 2012
Causes of the Postal Service FERS Surplus – 2012 Update                   RARC-WP-13-002


payout stream. In addition, we suggest changes to the way the surpluses in FERS are
treated. There is no mechanism under current law to return surplus FERS funds once
the surplus has occurred. The Postal Service’s contribution rate could also be adjusted
to use Postal Service-specific assumptions. The Postal Service’s payments for retiree
benefits should accurately reflect their ultimate costs.




                                                   2
                                         December 4, 2012


                                         U.S. Postal Service
                                         Evaluation of the USPS Postal Service Fund for
                                         Employees Enrolled in the Federal Employees
                                         Retirement System




Submitted by:



4301 N. Fairfax Drive
Suite 600
Arlington, VA 22203
Phone: 703-841-3100
Fax: 703-841-3108



© 2012 Hay Group. All rights reserved.                                            www.haygroup.com
Contents


EXECUTIVE SUMMARY ......................................................................................................................... 3

I.        UPDATED MEASUREMENT OF SURPLUS .......................................................................... 4

II.       METHODS AND ASSUMPTIONS ............................................................................................ 8

III.      DATA ........................................................................................................................................... 10

IV.       ACTUARIAL CERTIFICATION .............................................................................................. 11




                                                                                                                                             www.haygroup.com
EXECUTIVE SUMMARY

USPS Office of Inspector General (OIG) retained Hay Group to perform an analysis of the USPS
portion of the Federal Employees Retirement System (FERS).

We issued a report on October 12, 2012, that examined the effect of applying USPS-specific
assumptions to the FERS valuation. It was based on 2010 census data and economic assumptions
adopted by the Civil Service Retirement and Disability Fund Board of Actuaries on
June 11, 2010, including an interest rate of 5.75 percent. Since we issued that report, the Office
of Personnel Management (OPM) has released an updated estimate of the USPS portion of FERS
based on 2011 census data and revised economic and demographic assumptions adopted by the
Board of Actuaries in July 2012.

This report provides an updated measurement of the USPS portion of FERS that uses USPS-
specific assumptions and is comparable to OPM’s updated estimate. The economic assumptions
have been updated to reflect the July changes by the Board of Actuaries, and the underlying
census data has been updated to 2011. We have also incorporated more recent forecasts of
USPS-salary increases and revised the annuitant mortality rates to reflect OPM’s recent changes
to its mortality assumptions.

Table E-1 compares our updated measurement of the FERS surplus under USPS-specific
assumptions to OPM’s results. As of September 30, 2011, the surplus was measured to be $11.4
billion under USPS-specific assumptions rather than $2.6 billion.

We also projected the results to September 30, 2012 to be comparable to OPM’s projection. The
projected surplus of $3.0 billion increases to more than $12.4 billion when remeasured using
USPS-specific assumptions.

                                        Table E-1
                         FERS Surplus under Different Assumptions
                                  Amounts in $Billions
                                                OPM         USPS-Specific
                                            Assumptions      Assumptions
            Surplus Estimate
            as of September 30, 2011                $2.60              $11.46
            Surplus Projection
            as of September 30, 2012                $3.00              $12.48



                         3/11                                                            www.haygroup.com
  I.   UPDATED MEASUREMENT OF SURPLUS

This report includes the following new information:
   1. Revised economic assumptions
   2. Updated 2011 census data
   3. Revised salary increase forecasts from the USPS forecasting unit
   4. Revised annuitant mortality rates

In addition, for FY2012 the actual COLA of 2.6 percent for FERS was applied in place of the
long term COLA assumption.


Revised economic assumptions

OPM’s most recent valuation uses the new economic assumptions the Board of Actuaries
adopted in July 2012. Table I-1 shows the prior and current economic assumptions. The
reduction of the interest rate had the effect of increasing the liability and reducing the surplus,
although this effect was partially offset by the decrease in salary growth.

                                          Table I-1
                                    Economic Assumptions
              Date                      FERS        Interest               Salary
                          Inflation
            Approved                    COLA          Rate                Growth
            6/11/2010      3.00%        2.40%        5.75%                 3.75%
            7/13/2012      3.00%        2.40%        5.25%                 3.25%
              Change        None        None        (0.50%)               (0.50%)

OPM assumed a general salary increase of 0.0 percent for FY2012 in place of the long term
salary increase assumption of 3.25 percent.

Updated 2011 census data

OPM provided updated information on USPS employees enrolled in FERS and postal annuitants.
More information appears in Section III.


Revised salary increase forecasts

Table I-2 shows the USPS forecast team’s projected pay increases for FERS employees. The pay
increases have been updated since the July 2012 forecast. The revised forecast produces a


                         4/11                                                             www.haygroup.com
slightly larger final pay for employees who retire prior to 2017 and a slightly (less than
0.5 percent) smaller final pay for employees who retire after 2017.



                                      Table I-2
           USPS Forecast Team’s Projected Pay Increases for FERS Employees
                              Weighted Average            Weighted Average
            Fiscal Year      Percentage Increase         Percentage Increase
                                  (July 2012)             (November 2012)
               2012                 0.33%                      1.33%
               2013                 2.27%                      1.56%
               2014                 2.39%                      2.90%
               2015                 2.13%                      1.95%
               2016                 2.39%                      1.85%

                2017                    2.52%                        2.34%
                2018                    2.55%                        2.38%
                2019                    2.57%                        2.48%
                2020                    2.56%                        2.51%
                2021                    2.55%                        2.52%

                2022                    2.55%                        2.52%


For years after 2022, the USPS combined merit and general increase rate is assumed to be
2.85%.

Revised annuitant mortality rates

The revised annuitant mortality rates were based on recent experience and projected
improvements based on the rate of improvement observed over the last 10 years. The
improvements are projected to 2024 and produced a static mortality table. For more information,
see the discussion of assumptions in Section II.




                         5/11                                                         www.haygroup.com
Remeasured Estimates

Table I-3 shows the remeasured estimates of the FERS liability and surplus as of September 30,
2011. The first column (“OPM Assumptions”) shows the results from the OPM valuation using
FERS-wide assumptions. The second column (“USPS-Specific Assumptions”) includes both
USPS pay assumptions and USPS demographic assumptions based on USPS employee
experience for turnover, disabilities, retirement and annuitant mortality rates.

Table I-3 shows the liability is 10.5 percent lower when measured using USPS-specific
assumptions resulting in an increase in the surplus of nearly $9 billion.

This increase in the surplus is driven by the use of USPS-specific pay assumptions. In fact, if
only USPS-specific pay assumptions are applied, the liability is reduced further to $74.22 billion,
a 12 percent reduction, and the surplus increases to $12 billion. The use of USPS-specific
demographic assumptions for active employees increases the liability whereas the use of USPS-
specific mortality assumptions reduced the liability resulting in a surplus of $11.46 billion.

                                        Table I-3
                    Estimate of FERS Surplus as of September 30, 2011
              Based on Alternate Pay Increase and Demographic Assumptions
                                   Amounts in $Billions
                  Amounts in $Billions              OPM        USPS-Specific
                                                Assumptions     Assumptions
            Assumed Investment Return Rate              5.25%              5.25%
            Assumed Post-Retirement COLA
            Increases                                   2.40%              2.40%
            Salary Increase Assumptions:
              General Salary Increase                   3.25%              USPS
              Merit Salary Increase                      OPM               USPS
            Active Demographic Assumptions               OPM               USPS
            Annuitant Mortality Assumption               OPM               USPS
            Assets                                      $86.60             $86.60
            Actuarial Accrued Liability                 $84.00             $75.14
            Surplus                                      $2.60             $11.46




                         6/11                                                             www.haygroup.com
The results as of September 30, 2011 were projected to September 30, 2012. Table I-4 shows the
surplus of $3.0 billion increases by $9.48 billion to $12.48 billion when remeasured using USPS-
specific assumptions.


                                       Table I-4
                    Estimate of FERS Surplus as of September 30, 2012
              Based on Alternate Pay Increase and Demographic Assumptions
                                   Amounts in $billions
                 Amounts in $Billions             OPM         USPS-Specific
                                               Assumptions     Assumptions
          Assets                                     $93.50             $93.50
          Actuarial Accrued Liability                $90.50             $81.02
          Surplus                                     $3.00             $12.48




                         7/11                                                          www.haygroup.com
II.    METHODS AND ASSUMPTIONS

Methods

No two valuation systems prepare valuation data or value the benefits in exactly the same
manner. We therefore prepared an initial valuation run using the OPM assumptions and
compared the results to the published OPM valuation results. The resulting adjustment factor
(ratio of Hay Group results to OPM results both using OPM assumptions) was used in
subsequent valuations to develop the adjusted results. This methodology ensures that if OPM
were to apply the USPS-specific assumptions, the valuation results should match the results in
this report. Separate adjustment factors were developed for annuitants and employees.

Assumptions

Our initial valuation used the revised OPM assumptions for withdrawal, disability, in-service
mortality, and retirement.      Our subsequent valuations used USPS-specific assumptions.
Development of the USPS-specific assumptions is documented in the October 2012 Hay Group
report, which were based on a recent experience study.

The OPM revised assumptions included a change to the annuitant mortality rates that projected
improvements in mortality (based on a study of the last 20 years experience) to 2024. We
analyzed the mortality experience of USPS annuitants from 2000 to 2011 and developed a
USPS-specific set of mortality rates based on that experience. These rates were then adjusted by
mortality improvement factors through 2024, in parallel to the approach used by OPM.

The analysis of the USPS experience showed that there was no improvement in rates for male
annuitants under age 65 (rather, the rates had increased for ages under 60 and were flat for ages
60-64), and improvement that varied from under 0.5 percent per year to about 2 percent per year
for male annuitants over age 65. The improvement in rates for female annuitants was between
0.5 percent and 3 percent per year. The table below shows the average improvement factors
used for FERS-wide and USPS-specific mortality rates. Overall, the mortality improvement
factors for USPS were lower for males and higher for females than FERS-wide.

                                     Table II-1
                        Annual Rate of Mortality Improvement
                               FERS-wide                   USPS
                           Males       Females       Males      Females
          Under age 65     1.7%         1.2%         0.3%        1.9%
          Age 65 & over    1.4%         0.8%         1.3%        1.3%
          Ages 55-90       2.0%         1.2%         1.0%        1.5%



                         8/11                                                           www.haygroup.com
The combined impact of using USPS experience and USPS mortality improvement factors
resulted in life expectancies for male USPS annuitants that are 1-2 years shorter than FERS-wide
at ages 55 to 65 and longer for ages 75 and older. For female USPS annuitants the life
expectancy is longer than FERS-wide at all ages, with the difference about 1 year at age 65.

Actuarial Cost Method

We used the Aggregate Entry Age Cost Method to determine the Actuarial Liability. Under this
method the Actuarial Liability is determined as the Present Value of Benefits less the Present
Value of Future Normal Costs.

Normal Cost Rate

The revised OPM measurement uses a higher Normal Cost rate as a result of the change in
assumptions. Therefore in determining the present value of future contributions, we used the
revised FERS-wide Normal Cost rate based on a FERS-wide new entrant population (prepared
by OPM).

As the new Normal Cost rate has not yet been published in the Federal Register, USPS, along
with other agencies, continue to be charged the rate of 11.9 percent of pay in FY2013.




                         9/11                                                          www.haygroup.com
III.   DATA

We received group data summaries from OPM which contained average pay and the number of
members in individual age and service cells by gender and retirement system group. The data
was prepared for use in Hay Group’s valuation system (PVL) and the total number of records
compared to headcounts provided by USPS. The totals were consistent.

We received USPS annuitant records in single age summaries by gender, type of benefit, type of
retirement, and retirement system.

                               Table III-1
                          USPS FERS Employees
  Retirement Group         Gender          Number            Average Pay
  FERS Elect 1987           Male             1,217            $59,664
  FERS Elect 1987          Female              949            $58,299
  FERS Elect 1998           Male               674            $61,693
  FERS Elect 1998          Female              470            $61,355
  FERS Automatic            Male           269,531            $56,092
  FERS Automatic           Female          198,158            $54,908
        Total                              471,000            $55,621

                                          Table III-2
                                   USPS FERS Employees
Age Nearest                        Closest whole year of service
 Birthday           <5      5-9     10 - 14 15 - 19 20 - 24        25 - 29     30+      Total
  15 - 19            1         0          0         0        0           0       0          1
  20 - 24          229        55          0         0        0           0       0        284
  25 - 29        2,336     3,938         64         0        0           0       0      6,338
  30 - 34        3,851    11,032      4,448        64        0           0       0     19,394
  35 - 39        3,569    11,521    15,418     5,477        70           0       0     36,055
  40 - 44        4,015    12,594    20,906 17,488        5,462        383        0     60,848
  45 - 49        4,104    13,052    20,100 18,843 20,647           16,496      244     93,486
  50 - 54        3,560    11,777    20,282 17,566 21,967           32,930    3,389    111,472
  55 - 59        2,316     7,607    15,526 15,580 16,162           24,496    3,771     85,458
  60 - 64        1,110     3,811      7,676    9,532     8,670     12,089    1,944     44,833
  65 - 69          338     1,052      1,965    2,300     2,121      2,525      486     10,786
  70 - 74           76       189        389      393       353        431       81      1,911
    75+              3        13         21        24       32          33       8        134
   Total        25,508    76,641   106,795 87,267 75,484           89,383    9,923    471,000



                         10/11                                                       www.haygroup.com
IV.    ACTUARIAL CERTIFICATION


USPS Office of Inspector General (OIG) retained the Hay Group to perform an analysis of the
USPS portion of the Civil Service Retirement and Disability Fund (CSRDF). The scope of this
assignment was limited to the Federal Employees Retirement System. Use of these results for
other purposes may not be appropriate.

This analysis has been conducted in accordance with generally accepted actuarial principles and
practices.

The results shown in this report are reasonable actuarial results. However, a different set of
results could also be considered reasonable actuarial results. The reason for this is that actuarial
standards of practice describe a "best-estimate range" for each assumption, rather than a single
best-estimate value. Thus, reasonable results differing from those presented in this report could
have been developed by selecting different points within the best-estimate ranges for various
assumptions.

The actuaries certifying to this report are members of the American Academy of Actuaries and
other professional actuarial organizations, and meet the General Qualification Standards of the
American Academy of Actuaries for purposes of issuing Statements of Actuarial Opinion.




Adam J. Reese, FSA, FCA, MAAA, EA




Craig Graby, FCA, MAAA, EA
December 4, 2012




                          11/11                                                            www.haygroup.com
